         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report



       EPA Needs to Strengthen
       Internal Controls for Determining
       Workforce Levels
       Report No. 11-P-0031

       December 20, 2010
Report Contributors:                          Patrick Gilbride
                                              Teren Crawford
                                              Raul Adrian




Abbreviations

AA           Assistant Administrator
CFO          Chief Financial Officer
CFR          Code of Federal Regulations
CHCO         Chief Human Capital Officer
EPA          U.S. Environmental Protection Agency
FTE          Full-Time Equivalent
FY           Fiscal Year
GAO          Government Accountability Office
GPRA         Government Performance and Results Act
HCAAF        Human Capital Assessment and Accountability Framework
MCO          Mission-Critical Occupation
NPM          National Program Manager
OARM         Office of Administration and Resources Management
OB           Office of Budget
OCFO         Office of the Chief Financial Officer
OHR          Office of Human Resources
OIG          Office of Inspector General
OMB          Office of Management and Budget
OPM          Office of Personnel Management
RA           Regional Administrator
                       U.S. Environmental Protection Agency 	                                                 11-P-0031
                                                                                                       December 20, 2010
                       Office of Inspector General


                       At a Glance
                                                                               Catalyst for Improving the Environment


Why We Did This Review             EPA Needs to Strengthen Internal Controls for
Workforce planning identifies      Determining Workforce Levels
human capital required to meet
                                    What We Found
organizational goals. We sought
to determine whether the U.S.      EPA’s policies and procedures do not include a process for determining
Environmental Protection           employment levels based on workload as prescribed by the Office of Management
Agency (EPA) has established       and Budget. Further, EPA does not determine the number of positions needed per
and effectively implemented        mission-critical occupation (MCO) using workforce analysis as required by the
internal controls for              Office of Personnel Management (OPM). These conditions occurred because EPA
determining workforce levels       has not developed a workload assessment methodology and has not developed
and effectively used workforce     policies and procedures that require identifying and reporting on the number of
planning in its strategic          positions needed per MCO. As a result, EPA cannot demonstrate that it has the right
planning process.                  number of resources to accomplish its mission. The Government Accountability
                                   Office and EPA Office of Inspector General have reported instances in which
Background                         personnel resources were not adequately considered and, consequently, offices
                                   encountered delays or did not meet mission requirements.
The Government Performance
and Results Act requires           OPM noted that EPA’s Human Capital Management Report shows evidence that
agencies to describe the human     EPA’s work is guided by human capital goals and objectives. However, EPA’s
resources needed to meet           Office of Human Resources does not require that workforce planning results link to
strategic and performance          EPA’s strategic and performance goals. This condition occurred because the Office
goals. For fiscal year 2009,       of Human Resources has not clearly defined the reporting requirements needed. As
EPA’s full-time equivalents        a result, there is no assurance that EPA’s workforce levels are sufficient to meet the
(FTEs) on board were               workload of the Agency.
approximately 17,200 with
payroll costs representing          What We Recommend
$2.2 billion of EPA’s
$7.6 billion budget. The           We recommend that EPA’s Chief Financial Officer amend guidance to require that
Government Accountability          the Agency complete a workload analysis for all critical functions to support the
Office and EPA Office of           Agency’s budget request for FTEs. We recommend that Office of Administration
Inspector General have reported    and Resources Management amend its workforce planning guidance to require that
on the importance of basing        headquarters program offices and regions provide the number of positions needed
workforce levels on workload.      for each MCO, along with the applicable FTEs associated with each of EPA’s
                                   strategic goals and program areas. In addition, we recommend that Office of
For further information, contact   Administration and Resources Management provide the Chief Financial Officer’s
our Office of Congressional,       Office of Budget with the workforce planning results for each program and strategic
Public Affairs and Management      goal for inclusion in the budget. EPA disagreed with the recommendations in the
at (202) 566-2391.
                                   draft report. The recommendations in chapter 2 are unresolved and pending the
To view the full report,           Agency’s 90-day response. For recommendations in chapters 3 and 4, EPA
click on the following link:       provided alternative recommendations and we accepted the recommendations with
www.epa.gov/oig/reports/2011/      one slight revision. We consider these recommendations open, and EPA should
20101220-11-P-0031.pdf
                                   provide estimated or actual completion dates for chapter 3 and 4 recommendations.
                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                       December 20, 2010

MEMORANDUM

SUBJECT: 	 EPA Needs to Strengthen Internal Controls for Determining Workforce Levels
           Report No. 11-P-0031


FROM: 	        Arthur A. Elkins, Jr.
               Inspector General

TO: 	          Craig E. Hooks
               Assistant Administrator for Administration and Resources Management

               Barbara J. Bennett 

               Chief Financial Officer 



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report—calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time—is $747,871.

Action Required

In accordance with EPA Manual 2750, EPA’s Audit Management Process, you are required to
provide a written response to this report within 90 calendar days. You should include a
corrective action plan for agreed-upon actions, including milestone dates for chapter 3 and 4
recommendations. As discussed in the report, we consider recommendations in chapter 2
unresolved pending your 90-day response. Final determination on this issue will be made in
accordance with audit resolution procedures. We ask that you review our comments and
reconsider your responses.

Your response will be posted on the OIG’s public website, along with our memorandum
commenting on your response. Your response should be provided as an Adobe PDF file that
complies with the accessibility requirements of section 508 of the Rehabilitation Act of 1973,
as amended. The final response should not contain data that you do not want to be released to
the public; if your response contains such data, you should identify the data for redaction or
removal. We have no objections to the further release of this report to the public. This report
will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at 202-566-0899; or Patrick Gilbride, Product Line
Director, at 303-312-6969 or Gilbride.Patrick@epa.gov.
EPA Needs to Strengthen Internal Controls for                                                                                11-P-0031
Determining Workforce Levels


                                   Table of Contents 


Chapters 

   1	    Introduction ...........................................................................................................      1     


                 Purpose ..........................................................................................................    1         

                 Background ....................................................................................................       1         

                 Noteworthy Achievements..............................................................................                 3         

                 Scope and Methodology.................................................................................                4         


   2	    Improvements Needed in Determining Employment Levels 

         Based on Workload ..............................................................................................              5


                 Office of Budget Policies and Procedures 

                    Do Not Sufficiently Reflect Workload Data ................................................                         5

                 Conclusions ....................................................................................................      7         

                 Recommendations .........................................................................................             7         

                 Agency Comments and OIG Evaluation.........................................................                           7


   3	    Improvements Needed in Determining and Reporting on 

         Mission-Critical Occupations............................................................................... 10 


                 Workforce Planning Does Not Include Staffing Levels for 

                   Mission-Critical Occupations .....................................................................                 10 

                 Conclusions ....................................................................................................     11         

                 Recommendations .........................................................................................            12         

                 Agency Comments and OIG Evaluations .......................................................                          12 


   4	    EPA Needs to Link Workforce Planning to Agency Goals ................................ 13 


                 Human Resource Procedures Not Linked to Agency Goals...........................                                      13 

                 Conclusions ....................................................................................................     15

                 Recommendations .........................................................................................            16         

                 Agency Comments and OIG Evaluation.........................................................                          16 


   Status of Recommendations and Potential Monetary Benefits................................. 18 




Appendices 

   A     Offices Visited or Contacted ................................................................................                19

   B     Prior GAO and OIG Reports Related to Workforce Planning............................                                          20 

   C     Sample of Survey Questionnaire Responses.....................................................                                22

   D     EPA Response to Draft Report ............................................................................                    25

   E     OARM Alternative Recommendations.................................................................                            32 

   F     Distribution ............................................................................................................    34 

                                     Chapter 1

                                      Introduction
Purpose

            The purpose of this audit was to assess the U.S. Environmental Protection
            Agency’s (EPA’s) implementation and oversight of workforce planning.
            Specifically, our objectives were to determine whether EPA effectively:

                   Established and implemented internal controls for determining workforce
                    levels
                   Used workforce planning in its strategic planning process

Background

            Human Capital Management and Workforce Planning

            Workforce planning identifies the human capital required to meet organizational
            goals. EPA defines its Strategic Workforce Plan as a systematic process for
            attracting, developing, and retaining the workforce needed to accomplish EPA’s
            mission. The plan is a critical element of the Agency’s Human Capital Strategy.
            For fiscal year (FY) 2009, EPA had approximately 17,200 employees and payroll
            costs representing $2.2 billion (29 percent) of EPA’s $7.6 billion total budget.
            Figure 1 shows how EPA’s full-time equivalent (FTE) budget levels have
            declined in each of the last 5 years.
            Figure 1: EPA budgeted FTEs (FYs 05-09)

                18,000
                17,800
                17,600
                17,400
                17,200
                17,000
                16,800
                             2005         2006         2007         2008          2009
            Source: EPA’s FYs 2005-2009 Annual Performance Plan and Congressional Justification.




11-P-0031                                                                                          1
                Strategic Human Capital Management represents a transformation in how the
                federal government employs, deploys, develops, and evaluates the workforce. Its
                goal is to place the right people in the right jobs and, using workforce analysis,
                determine the staffing levels needed to perform the work of the organization.
                Human Capital Management served as the primary initiative of the President’s
                Management Agenda and later became a requirement in the Chief Human Capital
                Officers (CHCO) Act of 2002, and the Code of Federal Regulations (CFR). The
                Government Performance and Results Act (GPRA) of 1993 also addresses similar
                human resource requirements. GPRA requires agencies to describe, in their
                strategic plans and budgets, the human resources needed to accomplish their
                goals.

                Title 5 CFR Part 250.202 and its appendix, Human Capital Assessment and
                Accountability Framework1 (HCAAF), require OPM to design systems and set
                standards, including appropriate metrics, for assessing human capital management
                by federal agencies. HCAAF requires aligning human resources with an agency’s
                strategic goals. It states that workforce planning is a critical factor in achieving
                agency goals and for operating efficiently, effectively, and in compliance with
                Merit System Principles.2 HCAAF requires that workforce planning systems
                include a workforce analysis process that identifies the size and characteristics of
                the workforce needed to meet organizational goals. It directs agencies in planning,
                evaluating, and improving the efficiency and effectiveness of agency human
                capital management. This process includes integrating human capital management
                strategies into agency strategic plans and performance budgets prepared under
                Office of Management and Budget (OMB) Circular A–11.

                Key Human Capital Management Officials

                The CHCO Act and EPA guidance identify the following key officials and their
                responsibilities in connection with workforce planning:

                    	 The CHCO Act established CHCOs. These officials advise and assist
                       agency leaders in carrying out their responsibilities to select, develop,
                       train, and manage a high-quality, productive workforce. The act requires
                       CHCOs to assess workforce characteristics and future needs based on their
                       agency’s mission and strategic plan. The Assistant Administrator for the
                       Office of Administration and Resources Management (OARM) is EPA’s
                       CHCO.

                    	 EPA’s Office of Human Resources (OHR), within OARM, provides
                        leadership, coordination, guidance, and technical expertise in all areas
                        related to strategic human capital management. OHR also provides
                        support to EPA’s CHCO. OHR is accountable for ensuring that proposed
                        human capital management actions meet regulatory compliance and are

1
  HCAAF is a mandate of the CHCO Act. Public Law 107-296, Title XIII – Federal Workforce Improvement, 

sections 1301–1305, dated November 25, 2002. 

2
  Title 5 U.S. Code 2301(b). 


11-P-0031                                                                                                 2
                   consistent with Merit System Principles. According to EPA’s Strategic
                   Workforce Plan, OHR activities involve periodic monitoring, analysis, and
                   reporting on EPA’s workforce.

               	 EPA’s Office of Budget (OB), within the Office of the Chief Financial
                  Officer (OCFO), is responsible for budget formulation and execution. The
                  OB annual planning and budget memoranda further establish OB’s leading
                  role during the budget process, in discussing and determining workforce
                  levels, in evaluating emerging issues and their impact, and in determining
                  administrative priorities.

               	 EPA’s Office of Planning, Analysis, and Accountability, within OCFO,
                  works with OB to integrate goal-based decision-making into allocating
                  Agency resources through multi-year and annual planning in the budget
                  process. The Office of Planning, Analysis, and Accountability staff
                  design, develop, implement, and maintain an Agency-level process for
                  identifying, collecting, analyzing, and reporting performance and resource
                  information as required by GPRA.

               	 EPA’s Administrator and 12 Assistant Administrators (AAs) in
                  headquarters program offices are National Program Managers (NPMs)
                  who control resources. The responsibilities of the NPMs include planning,
                  formulating, and justifying budgets for national EPA programs, including
                  the regional program components, adjusting national program budgets
                  (e.g., headquarters/regional splits) as needed, and preparing program
                  operating guidance. AAs report workforce-planning data to the OHR.

               	 EPA has 10 Regional Administrators (RAs) who directly report
                  workforce-planning data to the OHR. RAs are responsible for regional
                  administration and budget execution for all programs in the states and
                  territories within their region. RAs coordinate with NPMs on budget
                  formulation, execution, and present regional budget planning concerns
                  through the lead region process.

Noteworthy Achievements
            EPA has taken steps toward improving workforce planning. OB has awarded a
            contract to study best practices for identifying appropriate workforce size based
            on workload. The study is targeting key EPA functions: (1) regulatory
            development, (2) scientific research, (3) enforcement, (4) financial management,
            (5) environmental monitoring, and (6) permitting. The results of this effort have
            not yet been determined.

            According to OPM, EPA’s Human Capital Management Report shows evidence
            that EPA’s work is guided by human capital goals and objectives. Under a
            previous OPM scorecard grading system, EPA achieved “Green” status in
            FY 2008 for its human capital management efforts.


11-P-0031                                                                                       3
Scope and Methodology
                  We conducted our audit from November 2008 to June 2010 in accordance with
                  generally accepted government auditing standards. Those standards require that
                  we obtain sufficient, appropriate evidence to provide a reasonable basis for our
                  findings and conclusions based on our evaluation objectives. We believe that the
                  evidence obtained provides a reasonable basis for our findings and conclusions
                  based on our objectives.

                  Based on the survey responses, we used a judgmental sample of four headquarters
                  program offices (Office of Chemical Safety and Pollution Prevention, Office of
                  International and Tribal Affairs, Office of Environmental Information, and Office
                  of Air and Radiation) and two regional offices (Regions 3 and 6) to perform
                  followup interviews on their processes and procedures. See Appendix A for a
                  complete list of offices visited or contacted.

                  We obtained and reviewed laws, regulations, guidance, and other background data
                  related to workforce planning, strategic goal alignment, and strategic human
                  capital management. These included GPRA; CHCO Act; 5 CFR; OMB circulars
                  and memoranda; Merit System Principles; HCAAF; and HCAAF systems,
                  standards, and metrics. We reviewed EPA’s resource management directives,
                  strategic workforce planning guidance, and other budgetary and workforce-
                  planning memoranda. We obtained documents on EPA’s budget, strategic
                  planning, strategic workforce planning, human capital planning, and workload
                  analysis studies performed on select EPA program offices. We reviewed prior
                  audit work performed by the Government Accountability Office (GAO) and
                  EPA’s Office of Inspector General (OIG). Appendix B provides prior audit
                  reports related to this report’s audit objectives. We met with officials from GAO
                  to coordinate our simultaneous audit efforts and discussed information on their
                  prior audit work. For background purposes, we obtained information on EPA’s
                  systems used to manage FTEs, budget, and other program information.

                  We obtained and reviewed policies and procedures used by OB, OHR, and other
                  Headquarters program offices and regional offices for workforce planning. We
                  interviewed staff and managers from OB and OHR. We conducted an electronic
                  survey of EPA’s processes and procedures used by headquarters program offices
                  and the 10 regions to determine workforce size per HCAAF requirements and
                  employment levels per OMB requirements.3 We included the applicable questions
                  and responses in the body of the report and Appendix C. For the purpose of this
                  audit, we used the following terms interchangeably: workforce levels, workforce
                  size, staffing levels, size of human capital, resource levels, and employment
                  levels. HCAAF further defines size of human capital, workforce size, and staffing
                  levels as the number of positions per MCO. OMB Circular A-11 defines
                  employment levels as FTE estimates, as well as MCO shortages (gaps) identified
                  through workforce planning.
3
  We did not send the survey to the Office of General Counsel. The Office of International and Tribal Affairs until
recently was the Office of International Affairs.

11-P-0031                                                                                                             4
                                  Chapter 2

             Improvements Needed in Determining 

            Employment Levels Based on Workload 

            EPA’s policies and procedures do not require that employment levels be
            determined based on workload as prescribed by OMB regulations. OMB Circular
            A-11 states that employment levels, also known as full-time equivalents, should
            reflect budget proposals and assumptions regarding workload. Currently, EPA
            does not have a workload assessment methodology to identify employment levels
            needed based on workload. As a result, EPA cannot provide reasonable assurance
            that human resources are sufficient to address mission needs. GAO and EPA OIG
            have reported instances where personnel resources were not adequately
            considered and, consequently, offices encountered delays, or did not meet mission
            requirements (see Appendix B).

Office of Budget Policies and Procedures Do Not Sufficiently Reflect
Workload Data
            OMB Circular A-11 §85 states that “employment levels should reflect budget
            proposals and assumptions concerning workload, efficiency, proposed legislation,
            interagency reimbursable arrangements, and other special staffing methods.” An
            OMB memorandum dated July 2009, “Managing the Multi-Sector Workforce,”
            requires that agencies begin developing and implementing policies, practices, and
            tools for managing the multi-sector workforce by adopting a framework for
            planning and managing the workforce built on strong human capital planning. The
            framework states that armed with understanding the organization’s mission,
            functions, workload, and desired performance standards, agencies should
            determine the mix of skills and the total amount of labor that is required for the
            organization to perform efficiently and effectively. The memorandum also states
            that this analysis should consider all the functions for which the organization is
            responsible.

            EPA’s Resource Management Directive 2520, final draft document, states, “Work
            year ceilings are imposed by the Agency to restrain the obligation of resources
            and to control the size of the Agency’s workforce. FTE ceilings are no longer
            imposed by OMB and are also not mandated by congress.” It does not require that
            FTEs be based on workload. OB’s annual planning and budget process
            memoranda identify proposed FTE levels based upon historical data. OB officials
            stated that they review past FTE usage for a period of 3 to 5 years to determine
            current year FTEs, taking into account emerging issues and the EPA
            Administrator’s priorities. OB also requires that headquarters program offices and
            regions use prior year resource levels as a base, and make adjustments as needed. 
            According to OB, this procedure allows offices to request changes to FTEs and
            incorporate workload information. However, if offices do not have changes, OB
11-P-0031                                                                                    5
            does not require that current workload analysis accompany FTE budget requests.
            OB amended the FY 2012 annual planning and budget memoranda to clarify that
            workload analysis should be prepared to support FTEs changes.

            EPA Models and Studies Used to Develop Workload Data

            OB does not currently use workload data to determine FTE levels because it does
            not have a current Agency workload model. EPA had historically used workload
            models to develop workforce estimates; however, these models were last updated
            in the 1980s and are no longer used. EPA senior management decided that the
            workload models were not producing significant changes to inform management
            decision-making meaningfully to justify the investment of time and resources.

            In 2006, the OCFO awarded a contract to explore workload and staffing methods
            used by other federal agencies with similar functions. However, the contractor
            found that varying methods were used because each agency is unique. The
            contractor recommended EPA develop its own approach for assessing and
            adjusting workforce allocations to align with workload. In addition, several EPA
            program offices have issued reports discussing workload analysis performed, but
            OB has not used nor required that these data be a part of the budget submission
            process (see Table 2-1 below).

            Table 2-1: Prior EPA workload analysis studies
             EPA Office                    Date       Subject Area
             Office of Grants and          April 2005 Management of Assistance
             Debarment                                Agreements at EPA: Workload
                                                      Analysis and Models.
             Office of the Chief Financial June 2006  EPA: Workload Assessment and
             Officer                                  Benchmarking Options
             Office of Research and        November   Administrative Efficiencies Project
             Development                   2006
             Office of Solid Waste and     December   Superfund Workload Assessment
             Emergency Response            2008       Report
            Source: EPA program offices listed.


            In 2009, EPA awarded another contract to benchmark workload indicators for
            select EPA functions across the Agency. Since the project is underway, results are
            not yet available. OB is working to implement a survey tool designed to establish
            a workload baseline for key functional areas as well as collect workload driver
            and product data. These baseline data will also be used to benchmark certain EPA
            functions to other federal agencies.

            Uncertainty About Human Resource Calculations

            Since OB determines FTE levels based on historical data and only factors in
            workload for minor adjustments, EPA cannot provide assurance that human
            resources are calculated and used efficiently and effectively to accomplish
            Agency goals. Internal controls should provide reasonable assurance of the
            effectiveness and efficiency of operations, including using the entity’s resources.

11-P-0031                                                                                         6
                Prior reports by both GAO and the OIG have highlighted the importance of
                managing resources and workload effectively. GAO and the OIG have identified
                and reported on instances where inadequate resource management influenced
                fulfilling EPA’s mission (see Appendix B).

                In October 2009, GAO reported that EPA’s budgeting and allocation processes
                did not fully consider the Agency’s workload.4 GAO concluded that without
                comprehensive and reliable data on workload, EPA could not accurately identify
                needed resources. In Report No. 2005-P-00006, dated February 2005, EPA OIG
                reported that EPA’s Office of Acquisition Management needed to perform
                workload and workforce analysis to identify FTE and skill gaps. OIG concluded
                that EPA might not be operating as a high-performing organization that has the
                necessary systems and processes in place for achieving its missions.

Conclusions
                OMB emphasizes the importance of understanding the organization’s mission,
                functions, workload, and desired performance standards, to determine the mix of
                skills and total amount of labor required to perform efficiently and effectively.
                Relying primarily on historical data does not aid EPA in determining needed
                employment levels. Comprehensive workload analysis should consider all the
                functions for which the organization is responsible.

Recommendations
                We recommend that the Chief Financial Officer (CFO):

                2-1 	    Amend the Resource Management Directive 2520 and the annual planning
                         and budget memoranda to require using workload analysis to help
                         determine employment levels needed to accomplish Agency goals.

                2-2 	    Require the Agency to complete a workload analysis for all critical
                         functions to coincide with developing the strategic plan.

Agency Comments and OIG Evaluation
                In response to recommendation 2-1, OCFO amended the FY 2012 annual
                planning and budget guidance to strengthen the current annual planning and
                budget processes in line with this recommendation. A more explicit requirement
                was added to more fully describe workload needs in determining FTEs needed to
                accomplish Agency goals. In addition, EPA agreed to incorporate this change in
                its next revision to the Resource Management Directive 2520. In our evaluation,
                we found EPA incorporated this change in its 2012 annual budget planning and

4
 GAO Testimony Before the Committee on Transportation and Infrastructure, U.S. House of Representatives,
GAO-10-165T Longstanding Issues Impact EPA’s and States’ Enforcement Efforts, Statement of Anu K. Mittal,
Director, Natural Resources and Environment.

11-P-0031                                                                                                   7
            budget guidance dated June 21, 2010, by including the following statement:
            “…Congressional appropriation staff had alerted us to the need for stronger, more
            detailed justification for FTE requests.” OB required that the program office’s
            senior budget officers and the regional comptrollers “be prepared to describe
            specific functions and workload and to provide backup analysis if asked.” While
            these actions partially address the recommendation, EPA did not agree to conduct
            workload analysis for all programs for which the Agency is responsible. EPA
            discontinued use of workload and workforce analysis nearly 20 years ago. Since
            that time, EPA has added programs, changed existing programs, and undertaken
            various initiatives (Brownfields, Chesapeake Bay, Great Lakes, Mountain Top
            Mining, Environmental Justice, etc.). As such, it is important that the Agency
            develop accurate estimates of the resources needed to carry out existing as well as
            new responsibilities. This would also assist in making data driven decisions on the
            cost and resource levels to address administration priorities.

            EPA did not agree with recommendation 2-2 citing that it does not currently have
            a workload methodology or model to address the recommendation. OCFO replied
            that it discontinued using previous workload models because they were not
            producing significant workload distinctions over time to change management
            decisionmaking meaningfully to justify the continued substantial investment of
            time and resources. Currently, OCFO is conducting a two-part Workload
            Benchmarking Study. EPA completed the first component, an internal baseline
            survey designed to capture best estimates of EPA’s current workload level of
            effort (FTE) and work drivers in six major functional areas: Scientific Research,
            Environmental Monitoring, Regulatory Development, Permitting, Enforcement,
            and Financial Management.

            The second component will benchmark EPA’s baseline survey data with other
            federal agencies performing similar work functions to identify best practices that
            may be applicable to EPA’s work, including potential methodologies that could
            be used to conduct workload analysis. EPA intends, after reviewing study results,
            to determine the most pragmatic and efficient next steps.

            We recognize that EPA does not currently have a workload methodology or
            model for determining workforce levels for the entire Agency. We also recognize
            that EPA has conducted a number of workload-related studies in the past and
            continues this practice with its current contractor. It is not the intent of the
            recommendation that OB be responsible for developing a single methodology or
            model for each program and regional office. EPA’s program and regional offices
            are comprised of hundreds of units, branches, and divisions with different
            functional responsibilities. As such, there is not a “one size fits all” approach to
            assess individual offices workload.

            Further, the individual offices, as opposed to OB, are better suited to accurately
            assess their workload and develop workforce estimates. The intent of the
            recommendation is to have the CFO, as the chief steward of the Agency’s budget
            and responsible for the development of the Agency’s strategic plan, require
            program and regional offices to provide accurate workforce estimates supported
11-P-0031                                                                                        8
            by workload analysis. As it has been nearly 20 years since EPA has conducted
            this level of analysis, and recognizing that EPA will need to develop estimation
            methods, initiating the process with the intent of completion to coincide with the
            Strategic Plan (3-5 years) would be a reasonable expectation and demonstrate that
            workforce levels correspond to the Agency’s goals and objectives. As such,
            recommendations 2-1 and 2-2 remain unresolved as the proposed actions do not
            fully address the problem areas identified.




11-P-0031                                                                                    9
                                   Chapter 3

  Improvements Needed in Determining and Reporting on 

             Mission-Critical Occupations 

            EPA’s workforce planning system does not include a workforce analysis process
            that identifies the number of positions needed for each MCO. According to 5 CFR
            §250.203, agencies must identify projected staffing levels for each MCO. This
            condition exists because OHR’s policies and procedures do not require that
            offices determine the number of positions needed per MCO. As a result, EPA
            does not capture sufficient information to develop strategies to recruit and train
            employees based on workforce planning results. While EPA reports MCOs in
            OPM’s Human Capital Management Report, the data are not obtained using the
            workforce analysis process prescribed by 5 CFR §250.203.

Workforce Planning Does Not Include Staffing Levels for
Mission-Critical Occupations
            Federal agencies’ responsibilities for strategic human capital management are
            identified in 5 CFR §250.203. The regulation states that the human capital plan, at
            a minimum, must include workforce analysis. The analysis must, for relevant
            agency mission requirements, describe the occupations most critical to the agency
            and, for each such occupation, describe its current and projected staffing levels.
            OPM’s HCAAF, which is an appendix to 5 CFR Part 250, states the following:

               	 “The agency’s workforce planning system contains a workforce analysis
                  process that systematically defines the size of the workforce needed and
                  identifies mission-critical occupations needed. Trends in mission-critical
                  occupations are analyzed in terms of the following factors: (1) number and
                  distribution of positions, and (2) surpluses in occupations and
                  competencies.”

               	 “The agency’s workforce planning system contains a workforce
                  analysis process that uses workforce planning reports and studies
                  in conjunction with best business practices to determine the most
                  effective work levels, workloads, and resources for efficient
                  functioning.”

            We reviewed the workforce planning information submitted to OHR by select
            EPA headquarters program offices and regions. Based on our review, OHR could
            not have used these results to report the number of positions needed for each
            MCO. In four of five responses obtained, the offices did not report the number of
            positions needed per MCO.



11-P-0031                                                                                   10
            OHR is responsible for developing EPA’s Strategic Workforce Plan. OHR is also
            responsible for preparing and consolidating the annual workforce planning
            request, which is completed by headquarters program offices and regions. Neither
            document requires identifying the number of positions needed for each MCO.
            Rather, OHR requests total FTE budget amounts, the total number of positions on
            board, and a combined total number of all requested MCO positions.

            Our review of OHR’s polices and procedures showed that they do not require
            offices to determine and report on the number of positions needed for each MCO.
            Rather, they require that offices use OB-established FTE budget amounts to
            determine size. FTEs simply represent a budget number; they do not represent the
            characteristics of the position such as the knowledge, skills, or abilities needed for
            the positions. Nor do FTEs represent occupational categories of the position. For
            example, if an office identifies the need for 10 FTEs, this number does not
            provide the characteristics needed to fill those positions; therefore, OHR cannot
            use the information for recruiting, hiring, or training purposes. A program office
            may have the right number of FTEs but may not have the appropriate mix of
            occupations filling those FTEs (e.g., toxicologist, chemist) to accomplish its
            mission.

            Reporting on Workforce Planning Needs Improvement

            OPM’s Human Capital Management Report requires that agencies report the
            number of positions needed for each mission critical-occupation. The report
            assesses federal agencies’ progress on human capital management. It contains a
            metric chart that requires agencies to project the number of employees needed per
            MCO by the end of the fiscal year, the onboard number, and identifies any
            shortages (gaps) in those MCOs.

            Based on the workforce planning results submitted by EPA’s offices, OHR did
            not and could not report the number of positions needed for each Human Capital
            Management Report. OHR, Human Capital Management Branch, told us it relied
            on its e-mails to headquarters program offices and regions, requesting projected
            resources needed, as well as a database that tracks personnel onboard to complete
            the HCMR chart. OHR’s e-mail information is not maintained, nor does it show
            evidence that EPA’s workforce analysis process was used to determine the
            number of positions per MCO needed, as required by the CFR.

Conclusions
            Internal control includes the organization, policies, and procedures used to help
            managers achieve results. Internal control also requires that EPA managers use
            resources in compliance with laws and regulations. The President’s Management
            Agenda stated that agencies shall use strategic workforce planning to recruit,
            retain, and develop a high performance workforce. Subsequently, 5 CFR Part 250
            adopted similar workforce planning requirements. OHR should determine and
            report on workforce size based on the number of positions per MCO needed, as
            required by the CFR. EPA’s policies and procedures should clearly define the
11-P-0031                                                                                      11
            roles and responsibilities for EPA offices to achieve a high performing workforce.
            Accurately determining workforce levels and MCOs needed are paramount to
            mission achievement.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

            3-1	   Amend its workforce planning guidance (in conjunction with Resource
                   Management Directive 2520 and the annual planning and budget
                   memoranda) to require that headquarters program offices and regions
                   provide the number of positions for the current fiscal year in each MCO
                   (see Appendix D), and the number projected to accomplish planned
                   Agency goals.

            3-2	   Report the MCO data gathered in conjunction with Resource Management
                   Directive 2520 and OB’s annual planning and budget memoranda, within
                   the Human Capital Management Report.

Agency Comments and OIG Evaluation
            Our draft report originally contained two recommendations for this chapter. The
            recommendations, directed to the Assistant Administrator for Administration and
            Resources Management, were:

               	 Amend its workforce planning guidance to require that headquarters
                  program offices and regions provide the number of positions needed for
                  each mission-critical occupation.

               	 Use local level workforce planning results to report the workforce size
                  needed in the Human Capital Management Report under the MCOs’
                  resource chart.

            In responding to the draft report, EPA did not agree with the original
            recommendations 3-1 and 3-2. During the exit conference and subsequent
            meetings, OHR expressed concerns regarding the difficulties they encounter in
            gathering workforce information from program offices and regions. To address
            this issue, OHR agreed to collaborate with OB during the budget formulation
            process to collect the required workforce information. Since both the CFO and
            CHCO Acts hold CFOs and CHCOs responsible for preparation of the human
            capital resource portion of the budget, we agree with this partnership and we have
            revised the report recommendations accordingly. On October 29, 2010, OARM
            provided suggested revisions for the OARM recommendations, which were
            coordinated with OCFO. OARM’s response is provided at Appendix E. This joint
            approach will satisfy the intent of the recommendations. These recommendations
            are open with agreed-to actions pending.

11-P-0031                                                                                    12
                                  Chapter 4

            EPA Needs to Link Workforce Planning 

                     to Agency Goals 

            EPA’s workforce planning does not link to the Agency’s strategic and
            performance plan goals. OPM’s HCAAF states that agencies should use a
            workforce planning process that links to the Agency’s goals. This condition
            occurred because OHR’s current workforce planning process does not require that
            workforce planning data link to Agency goals or program areas. As a result, EPA
            cannot provide reasonable assurance that workforce planning is effective in
            determining human resources needed to meet Agency goals. In addition, OHR
            cannot provide OB with workforce planning results linked to each program area,
            and associated strategic and performance goal.

Human Resource Procedures Not Linked to Agency Goals

            OPM’s HCAAF requires that agencies link workforce planning with agency
            goals. OPM regulations state, “The agency uses a documented, systematic
            strategic workforce planning process that links to the agency’s strategic plan and
            the strategic human capital plan.” This rule, based on a merit system principle,
            states that human resources are to be efficiently and effectively used to support
            agency mission accomplishments. GPRA and the CHCO Act also state that
            agencies shall provide a brief description of the skills and other human resources
            required to meet their goals and objectives. GPRA addresses both strategic and
            performance goals. OMB Circular A-11 §85.1 requires that the Agency’s budget
            submission identify workforce planning key activities and the associated
            resources that are needed to support Agency accomplishment of programmatic
            goals.

            OHR’s workforce-planning results do not link to EPA goals, as required by
            OPM’s HCAAF regulations. We reviewed the workforce-planning process used
            and results from five headquarters program offices and two regions, and found
            that the workforce planning results followed the OHR template process for
            workforce planning; however, the workforce planning results did not link to each
            of the Agency’s strategic goals or program area.

            Although OHR’s workforce planning memorandum requests that each office align
            its workforce with strategic goals, OHR’s template, which is provided to all
            offices for workforce planning, does not require that offices include this
            information in their workforce planning response. OHR management told us that
            they are responsible for Agency guidance on workforce planning and that they use
            workforce planning driven by goals and objectives. However, OHR believes that
            OCFO, which maintains FTE data, is responsible for linking resources to strategic
            and program performance goals. A review of the Agency’s budget showed that
            OCFO does not include the human resources and skills needed to accomplish
11-P-0031                                                                                    13
            Agency goals. Rather, it used FTE figures, which do not represent the skills and
            the actual number of people needed. The CHCO Act requires that CHCOs assess
            workforce characteristics and future needs based on the Agency’s mission and
            strategic plan. The CHCO Act also states that the CHCO shall prepare a
            description of the skills, human resources, and strategies required to meet agency
            goals in the annual performance budget.

            OMB Circular A-11 §51.8 (FY 2008 and FY 2009) states that a well-conceived
            and thoughtful description of the means, which includes human resources and
            staff skills, will help bolster confidence that there is an understanding of what is
            needed to achieve a certain performance level and good likelihood that the goal
            will be achieved. The OMB circular states, in part, that agencies should note the
            increasing emphasis on the use of workforce planning and other strategies that
            align human resources with the fulfillment of an agency’s mission and objectives.

            EPA’s performance budget is developed based on the Agency’s program areas
            and the associated strategic and performance plan goals. However, as mentioned
            above, OHR’s workforce-planning process does not require that program and
            regional offices develop and report workforce-planning results by Agency goal.
            As a result, EPA cannot include the required workforce-planning information
            (human resources, skills) by program and goal in its budget submissions.

            In EPA’s 2010 budget justification, EPA identified program activities and their
            associated goals. However, the justification contains no description of the skills
            and human resource levels needed, as shown in Table 4-1.
            Table 4-1: Excerpt of how workforce-planning data are not included in the budget

                                                           Research: Computational Toxicology
                                           Program Area: Research: Human Health and Ecosystems
                                                      Goal: Healthy Communities and Ecosystems
                                                      Objective(s): Enhance Science and Research

             Total Workyears             FY 2008 37.8              FY 2009 32.7        FY 2010 32.7

             Program Project Description:
             “Computational Toxicology is the application of mathematical and computer models to help assess
             the risk chemicals pose to human health and the environment. Supported by advances in
             informatics, high-throughput screening, and genomics, computational toxicology offers scientists
             the ability to develop a more detailed understanding of the risks posed by large numbers of
             chemicals, while at the same time reducing the use of animals for toxicological testing.”

             FY 2010 Activities and Performance Plan:
             “Consistent with the U.S. Environmental Protection Agency’s Strategic Plan for Evaluating the
             Toxicity of Chemicals, these funds will support the next Computational Toxicology Research
             Program Implementation Plan for FY 2009-2012, which will focus on three key areas in FY 2010:
             1) chemical prioritization and categorization tools; 2) information technology; and 3) systems
             biology models.”


            Source: 2010 Annual Performance Plan and Congressional Justification (excerpt).

            OMB Circular A-11 §85.1 requires that agencies present gaps identified as part of
            the workforce planning effort and related strategies to address the gaps. OMB
            Circular A-11 §220 states that, at a minimum, resources are to be aligned at the
11-P-0031                                                                                                       14
            program level. As such, these program area sections of the budget should include
            a description of the MCOs, gaps, and the strategies EPA is taking to fill those
            gaps. Workforce planning results are consolidated and included in the budget
            justification under one program area, as shown in Table 4-2. Therefore,
            workforce-planning results cannot be linked to specific program areas and the
            associated strategic and performance plan goals. Consequently, external
            stakeholders and users of the budget cannot identify which workforce-planning
            results apply to each strategic and program area goal.
            Table 4-2: Excerpt of workforce-planning data included in the budget under one
            program area

                                                                             Human Resources Management
                                                                   Program Area: Operations and Administration

             Goal: Provide Agency-wide support for multiple goals to achieve the Agency’s objectives.
             Total Work year           FY 2008 285.2             FY 2009 304.6             FY 2010 303.1
             Program Project Description:
             “Environmental Programs and Management resources in this program support activities related to the
             provision of human capital and human resources management services to the entire Agency. The
             Agency continually evaluates and improves human resource and workforce functions, employee
             development, leadership development, workforce planning, and succession management.”

             FY 2010 Activities and Performance Plan:
             “In FY 2010, the Agency will continue its efforts to implement a Workforce Planning System: (1) closing
             competency gaps for Toxicology, Information Technology, Human Resources, Grant and Contract
             specialist positions, as well as leadership positions throughout the Agency; (2) shortening the hiring
             timeframes for the senior executives and non-Senior Executive Service positions through improved
             automation and enhancements to application process; and (3) implementing innovative recruitment and
             hiring flexibilities that address personnel shortages in mission-critical occupations.”


            Source: 2010 Annual Performance Plan and Congressional Justification (excerpt).


Conclusions
            The federal workforce is key to mission accomplishment. The purpose of human
            capital management is to link human resources to achievement of the Agency’s
            strategic and performance goals. Incorporating agency strategic goals and
            program areas into workforce planning results provides assurance that the right
            people with the right skills are available to achieve Agency goals. According to
            the Strategic Workforce Plan guidance, OHR is responsible for compiling the
            Agency-level workforce-planning data and reporting them to external
            stakeholders and other interested parties. OHR’s responsibilities include
            providing human resource information for the Agency’s strategic plan, annual
            budget, and human capital strategy. OHR and OCFO share responsibility to
            ensure workforce-planning information is integrated into the budget and resources
            are aligned with program areas and goals.




11-P-0031                                                                                                       15
Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

            4-1 	   Upon development of the Agency’s Strategic Plan, require Agency
                    program and regional offices to provide local-level workforce-planning
                    data, including current year and potential shifts in the numbers of MCO
                    positions needed to meet strategic goals.

            4-2 	   Summarize the local-level workforce-planning data needed to achieve
                    each EPA strategic goal.

            4-3 	   Provide summarized local-level workforce-planning data, including data
                    sorted by programmatic goal level, to OB.

Agency Comments and OIG Evaluation
            Our draft report originally contained four recommendations for this chapter. The
            recommendations directed to the Assistant Administrator for Administration and
            Resources Management were:

                	 Amend the strategic workforce plan and local level workforce planning
                   request to require that headquarters program offices and regions provide
                   workforce planning results for each Agency strategic goal and program
                   area.

                	 Summarize the workforce planning results obtained from the headquarters
                   program offices and regions, including the number of positions, MCOs,
                   and shortage strategies needed to achieve each EPA strategic goal.

                	 Provide the summarized workforce planning results to OB for inclusion in
                   the performance budget.

            The recommendation directed to the CFO was:

                	 Require, through OB annual budget submission memoranda, that OHR
                   provide OB the workforce planning results at the programmatic goal level.

            In responding to the draft report, EPA did not agree with the recommendations.
            During the exit conference and subsequent meetings, OHR expressed concerns
            regarding the difficulties they encounter in gathering workforce information from
            program offices and regions. To address this issue, OHR agreed to collaborate
            with OB during the budget formulation process to collect the required workforce
            information. Both the CFO and CHCO Acts hold the CFO and CHCO responsible
            for preparation of the human capital resource portion of the budget. As such, we
            have revised the report recommendations based on this partnership. We also
            combined the draft report recommendations 4-3 and 4-4 and made one
11-P-0031                                                                                     16
            recommendation to reflect the partnership between both OHR and OB. On
            October 29, 2010, OARM provided suggested revisions for the OARM
            recommendations, which were coordinated with OCFO. OARM’s response is
            provided at Appendix E. This will satisfy the intent of the recommendations.
            These recommendations are open with agreed-to actions pending.




11-P-0031                                                                                  17
                               Status of Recommendations and
                                 Potential Monetary Benefits
                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
Rec.   Page                                                                                                       Completion   Claimed    Agreed To
No.     No.                              Subject                              Status1      Action Official           Date      Amount      Amount

 2-1     7     Amend the Resource Management Directive 2520 and the             U       Chief Financial Officer
               annual planning and budget memoranda to require using
               workload analysis to help determine employment levels
               needed to accomplish Agency goals.


 2-2     7     Require the Agency to complete a workload analysis for all       U       Chief Financial Officer
               critical functions to coincide with developing the strategic
               plan.


 3-1     12    Amend its workforce planning guidance (in conjunction with       O       Assistant Administrator
               Resource Management Directive 2520 and the annual                        for Administration and
               planning and budget memoranda) to require that                                 Resources
               headquarters program offices and regions provide the                          Management
               number of positions for the current fiscal year in each MCO
               (see Appendix D), and the number projected to accomplish
               planned Agency goals.


 3-2     12    Report the MCO data gathered in conjunction with Resource        O       Assistant Administrator
               Management Directive 2520 and OB’s annual planning and                   for Administration and
               budget memoranda, within the Human Capital Management                          Resources
               Report.                                                                       Management

 4-1     16    Upon development of the Agency’s Strategic Plan, require         O       Assistant Administrator
               Agency program and regional offices to provide local-level               for Administration and
               workforce-planning data, including current year and                            Resources
               potential shifts in the numbers of MCO positions needed to                    Management
               meet strategic goals.


 4-2     16    Summarize the local-level workforce-planning data needed         O       Assistant Administrator
               to achieve each EPA strategic goal.                                      for Administration and
                                                                                              Resources
                                                                                             Management

 4-3     16    Provide summarized local-level workforce-planning data,          O       Assistant Administrator
               including data sorted by programmatic goal level, to OB.                 for Administration and
                                                                                              Resources
                                                                                             Management




O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is unresolved with resolution efforts in progress




11-P-0031                                                                                                                                        18
                                                                             Appendix A

                     Offices Visited or Contacted

EPA Offices

Office of the Chief Financial Officer
Office of Administration and Resources Management, including Office of Human Resources
Office of Air and Radiation
Office of Enforcement and Compliance Assurance
Office of Environmental Information
Office of International and Tribal Affairs
Office of Chemical Safety and Pollution Prevention
Office of Research and Development
Office of Solid Waste and Emergency Response
Office of Water
Regions 1-10


Other Offices

Government Accountability Office
Office of Personnel Management




11-P-0031                                                                                19
                                                                                          Appendix B

                      Prior GAO and OIG Reports 

                     Related to Workforce Planning 


GAO Reports
Date/
Report No.   Human Capital Issues                           Effects
May 2005     Based on competing demands on workload         Improvements in air quality may be delayed.
             and other reasons, EPA missed deadlines.
GAO-05-613
July 2007    EPA did not complete an overall                Given the reductions in funding and
             assessment on workload to determine what       personnel, regional and state
GAO-07-883   the states need. EPA reduced the size of       enforcement officials noted states are
             the regional enforcement workforce by          finding it difficult to respond to new
             about 5 percent over 10 years, from 2,568      enforcement requirements in the Clean
             FTEs in FY 1997 to 2,434 FTEs in FY            Water Act, Clean Air Act, and Resource
             2006.                                          Conservation and Recovery Act, which have
                                                            greatly increased the number of regulated
                                                            pollutants and sources.

October      This testimony to Congress summarized          In 2005, GAO reported that EPA’s budgeting
2009         five prior GAO audit reports on the            and allocating process did not fully consider
             effectiveness of EPA’s enforcement             the Agency’s workload. Without
GAO-10-      program. It discussed the impact that          comprehensive and reliable data on
165T         inadequate resources and workforce             workload, EPA could not accurately identify
             planning have had on enforcement.              where Agency resources, such as staff with
                                                            particular skills, are most needed.

                                                            In 2007, GAO reported in terms of
                                                            enforcement programs, EPA must address
                                                            resource issues such as state staffing levels
                                                            and resource requirements.


EPA OIG Reports
Date/
Report No.   Human Capital Issues                          Effects
February     Office of Acquisition Management needs        EPA may not be operating as a high-
2005         to complete workload and workforce            performing organization that has the
             analysis to identify FTEs and skill gaps.     necessary systems and processes in place
2005-P-                                                    for achieving its missions. The systems and
00006                                                      processes are needed to ensure that the
                                                           organization has the right people, in the right
                                                           place, at the right time.
June 2005    EPA’s management tools and dispersion         EPA cannot assure that program costs are
             of authority for Brownfields prevent the      accurately determined, that staff is pursuing
2005-P-      Agency from effectively allocating,           the best actions to achieve program goals, or
00017        utilizing, and accounting for staff           that the program is spending resources
             resources. Staff is either under- or over-    efficiently and effectively.
             utilized, and staffing models are outdated,
             due to incomplete workload assumptions.



11-P-0031                                                                                              20
Date/
Report No.   Human Capital Issues                           Effects
June 2008    The Office of Solid Waste and Emergency        Delays will result in increases to cleanup
             Response and Region 2 said legal and           costs and prevent land reuse and
08-P-0169    enforcement issues, due to resource            redevelopment opportunities.
             constraints as well as other factors, could
             complicate cleanups and cause delays.
March 2009   One region had never inspected or              Cumulatively, during a worst-case chemical
             audited 38 of 61 high-risk facilities. This    release, 38 high-risk facilities could
09-P-0130    situation occurred because 59 lower-risk       potentially affect over 1 million people.
             facilities received duplicative oversight by
             being both audited and inspected by that
             region. The Office of Ecosystem
             Protection and Remediation and the
             Office of Enforcement, Compliance, and
             Environmental Justice have not
             coordinated activities and planning to best
             utilize resources and provide compliance
             assurance at Risk Management Plan
             facilities.




11-P-0031                                                                                                21
                                                                                          Appendix C

               Sample of Survey Questionnaire Reponses
Our intent through the survey questionnaire was to determine whether EPA’s program and
regional offices have established and effectively implemented internal controls for determining
workforce levels.

“To your knowledge, does EPA have a defined methodology for determining workforce
levels?”
Program Offices Responses
We believe that the Agency utilizes its budget development and planning process to determine workforce
levels. We also review its current workforce levels and mission requirements to identify future workforce
needs as a part of its integrated budget planning process.
Our office is not aware that any such methodology is currently in use.
No, especially not recently. No standardized policies and a procedure exist. AA determines FTE ceiling
amount and Division Director estimates work needed in some cases, and an initiative is underway to use
workload analysis model.
No. On a monthly and annual basis, OCFO performs FTE utilization reviews and projections to forecast
and determine our workforce outlook throughout the budget process. OCFO also performs historical
reviews based on 3 to 5 years of data to determine any FTE requirements for ongoing functions. Hiring
plans are used to ensure vacancies are filled as soon as possible.
The defined methodology is driven by the Agency's budget and planning processes.
Each year OCFO determines the number of FTE level each AA should have and OCFO has been doing
this for many years now. We believes EPA does have a defined methodology for determining workforce
levels, but would defer to OCFO in providing the details as to what that methodology entails. Our office
is unique among offices in that 25 percent of our FTE levels are reimbursable under the Working Capital
Fund. The Working Capital Fund Board sets the annual rates and FTE ceilings through a formalized
process that examines the Agency's business needs supported by the Working Capital Fund and the
amount of FTEs needed to accomplish those business needs.
Not to our knowledge. The overall workforce size is driven by FTEs allocated by the Agency. Since
there is more work to do than resources, FTEs are managed centrally which provides the flexibility to
meet the needs and demands of the Agency. When resource allocations are constrained, our office
reprioritizes how to best use its limited resources.
Yes. The President's Budget and, ultimately, the Operating Plan determine the total dollar amount and
FTEs allocated to each program project. OCFO directs the amount of resources assigned to each AA, and
in turn, the AA allocates to its respective offices.
Yes, OCFO has defined a specific methodology for determining workforce levels. FTE allocations are
based primarily on the number of FTEs that were allocated in previous years with increases or decreases
to reflect Agency priorities (e.g., investments or disinvestment decisions).
Through the budget process, OCFO provides guidance to National Program Managers (NPMs) but the
methodology is not shared.
As mentioned, we may receive inquiries from OHR regarding certain aspects of our planning; however, I
am not aware of the specific methodologies used. Our size is driven by our FTE ceiling and we manage
to that ceiling.




11-P-0031                                                                                             22
Regional Office Responses
Yes. EPA did significant work prior to 1990 in determining workforce levels by region for each of its
programs utilizing detailed workload models. Since that time, the level of annual changes has generally been
measured in fractions of FTEs/organizational unit. Such minor changes have not justified the effort and
manpower required to continuously update or develop new workload models. Changes have primarily been
allocated on a pro rata basis.
Prior to [the]1990s, EPA used workload models to annually distribute workyears. The models used different
methodologies to determine workforce levels and allocate FTE among the regions. These models are out-
dated and could not be used for current resource allocations. In recent budget cycles, FTE changes have
generally been minimal and therefore prorated among the regions.
EPA did significant work prior to FY 1990 in determining workforce levels by region for each of its programs
utilizing detailed workload models. Since that time, the level of annual FTE changes has not justified the
effort and manpower required to continuously update or develops new workload models. FTE changes have
primarily been allocated on a pro rata basis. During the past 3 years, the Region has been given the
opportunity to propose minor FTE adjustments among programs in developing the President's Budget request.
These adjustments, however, are within an allocation set by Headquarters after negotiations with the Office of
Management and Budget (OMB), and do not offer the ability to request increases in overall staff size based on
workload need.
Congress authorizes the FTE level for EPA. The EPA's internal methodology for determining workforce levels
has in the past utilized detailed workload models developed prior to 1990. The workload models are outdated.
In recent years, workforce changes have primarily been allocated on a pro rata basis.
The NPMs with their Senior Budget Officers determine FTE levels and distribute these levels by Responsible
Planning Implementation Office. These levels may change throughout the budget cycle from President’s
Budget submission to the enacted President’s Budget. Once we get an FTE ceiling, we initially develop a
utilization target (e.g., 98.5 percent of ceiling) and attempt to reach this target to attain the overall goals of the
Region. In order to determine priority needs, we use Stronger EPA plan, Regional Priorities, and NPM action
plans/Memorandum of Agreements. The Assistant Regional Assistant works with our programs to discuss
priority needs and hiring decisions are made based on those discussions.
Yes. A major effort was undertaken by EPA prior to 1990 to determine workforce levels by region for each of
its program by utilizing detailed workload models. Since then, the levels of changes annually have been
generally measured in fractions of FTEs or organizational units. Such minor changes have not justified the
time and effort required to continuously update or develop new workload models. Changes have generally
been allocated on a pro rata basis.
Yes, however detailed workload models were created many years ago. Since that time, the level of annual
workforce changes has generally been measured in fractions of FTEs/organizational unit. Such minor changes
have not justified the time and effort required to continuously update or develop new workload models. Any
marginal changes in FTE at the regional level are determined by senior staff, considering regional priorities.
Yes. We are aware that EPA did substantial work pre-1990 to assess and establish workforce levels by region
for each of its programs utilizing detailed workload models. Since that time, the level of annual changes have
generally been measured in fractions of FTEs/organizational unit. Such minor changes have not justified the
effort and manpower required to continuously update or develops new workload models. Changes have
primarily been allocated on a pro rata basis.
The historic workload model used by Headquarters to allocate FTE more than 2 decades ago is no longer
applied directly, but effectively serves as the foundation for current FTE allocations. EPA makes annual FTE
allocation changes generally on a pro rata basis at the program project level, adjusting from prior year
allocations. Current FTE allocations do not reflect the changed landscape of environmental issues (e.g.,
changes in population centers which directly affect environmental conditions), nor current methods of
delivering program results (such as the increased use of collaborative approaches often led at the field level by
regional offices).




11-P-0031                                                                                                     23
Yes. EPA did significant work prior to 1990 in determining workforce levels by region for each of its
programs utilizing detailed workload models. Since that time, the level of annual changes has generally been
measured in fractions of FTEs/organizational unit. Such minor changes have not justified the time and effort
required to continuously update or develop new workload models. Changes have primarily been allocated on
a pro rata basis.




11-P-0031                                                                                             24
                                                                                    Appendix D

                     EPA Response to Draft Report


                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460




                                         August 6, 2010

MEMORANDUM

SUBJECT:       EPA’s Comments on OIG Draft Report “EPA Needs to Strengthen Internal
               Controls for Determining Workforce Levels”
               Project Number 2008-537

FROM:          Craig E. Hooks /s/
               Assistant Administrator
               Office of Administration and Resources Management

               Barbara J. Bennett /s/
               Chief Financial Officer

TO:            Melissa M. Heist
               Assistant Inspector General for Audit
               Office of the Inspector General

       Thank you for the opportunity to comment on the subject report dated June 29, 2010. We
appreciate your staff’s efforts to address our previous comments and recognize that this report is
intended to support our continuing work to promote effective budget and workforce planning at
the Agency. Leadership and staff in the Office of Administration and Resources Management
(OARM) and in the Office of the Chief Financial Officer (OCFO) work closely with our
management partners in Headquarters and regional offices to project, plan for, and then oversee
approaches to ensure that EPA has the resources and skill levels needed to achieve
environmental results. We recognize we must lead efforts aimed at adjusting and adapting our
planning approaches and systems as environmental challenges change. While we have fully
considered the points made in the report, taking a number of them into account in our work and
preparation of our budget development guidance, we continue to have fundamental concerns
regarding some of the report’s key findings, conclusions, and recommendations. Our concerns
are summarized below and more fully described in the specific comments for each of the report’s
recommendations reflected in the attachment.


11-P-0031                                                                                      25
        Both of us must voice fundamental disagreement with two statements found in the
report’s “At a Glance” section. These two statements are:

      “… EPA cannot provide reasonable assurance that human resources are used efficiently
       and effectively to accomplish EPA’s goals,” and
      “… EPA has no assurance that workforce planning results meet Agency goals and
       comply with Office of Personnel Management regulations.”

In fact, the Agency is in full compliance with Office of Management and Budget (OMB)
Circular A-11, Preparation, Submission and Execution of the Budget, and Title 5 of the Code of
Federal Regulations, Part 250, Personnel Management in Agencies. Faulty conclusions such as
those quoted above could unjustifiably undermine the credibility of EPA as an environmental
leader in the eyes of the Agency’s highly dedicated staff, our environmental partners, and the
public we serve. Such statements also divert much needed focus and attention away from efforts
we are leading as part of EPA’s management community to continuously adapt our budget and
workforce planning systems to ensure that resources are aligned with mission priorities.
Coordinated workforce and budget planning alignment efforts are important and we are pursuing
them because we believe our efforts will further EPA’s existing capability to achieve our
mission.

         On a more specific level, the report’s findings appear to be based on an assumption that
the Agency’s strategic plan and annual budget submissions to OMB projecting the full-time
equivalent (FTE) levels necessary to perform our work need not be constrained by budget
realities. In fact, both are based upon “anticipated resources” and target levels per A-11 and
supplementary guidance and informed by Congressional appropriation levels. In this time of
deficit reduction, resources are not limitless. Implementing the processes as recommended
would not fulfill our budget planning responsibilities to OMB and the Congress and would drain
Agency resources needed to support relevant human capital and resource management and
oversight efforts.

         Finally, it is important that we draw a distinction between those aspects of the Agency’s
complementary but broad resource planning efforts performed via strategic/budget planning
versus those aspects performed via workforce planning. Budget planning primarily addresses the
number of staff and the fiscal resources reasonably anticipated to be available to support staffing
levels. Budget planning also considers the anticipated workload that staff will need to
implement strategies to support the Agency’s overarching mission as outlined by the five
comprehensive goals contained in the strategic plan. On the other hand, workforce planning
addresses the general skill and experience that the staff need to possess in order to effectively
support mission goal accomplishment. Organizational management, particularly at the local
level, is held accountable and tracked in multiple Agency systems for achieving specific mission-
critical results, then manages positions and people in parallel to optimize effectiveness.

       Thank you again for the opportunity to comment on the draft report. We remain
committed to partnering with your staff on findings and recommendations that more fully
support OCFO, OARM, and the Agency’s program/regional offices. Questions or comments
may be addressed to Kim Lewis, Director, Office of Human Resources/OARM at (202) 564-
4606, or Carol Terris, Deputy Director, Office of Budget/OCFO at (202) 564-0533.

11-P-0031                                                                                       26
cc: 	   Maryann Froehlich, Deputy Chief Financial Officer
        Josh Baylson, Associate Chief Financial Officer
        David Bloom, Director, Office of Budget
        Carol Terris, Deputy Director, Office of Budget
        Patrice Kortuem, OCFO
        Barbra Freggens, OCFO
        Diane Kelty, OCFO
        Kimberly Lewis, Director, Office of Human Resources
        Susan Kantrowitz, Deputy Director, Office of Human Resources
        VirDella Denwiddie, Acting Director, Human Capital Management Division
        Debbi Hart, Acting Branch Chief, Human Capital Planning Branch
        Alan Bogus, OHR

Attachment




11-P-0031                                                                        27
                                                                                     Attachment

                       EPA’s Specific Comments on Recommendations

Recommendation 2-1. We recommend the Chief Financial Officer require that OB amend the
Resource Management Directive 2520 and the annual planning and budget memoranda to require
using workload analysis to help determine employment levels needed to accomplish Agency
goals.
       Agency Response: Concur in part.
       OCFO has amended the FY 2012 annual planning and budget guidance to the Agency to
       strengthen the current annual planning and budget processes in line with this
       recommendation. A more explicit requirement has been added to more fully describe
       workload needs in determining FTEs needed to accomplish Agency goals. We will also
       include similar language in the next update of the Resource Management Directive 2520.
       It is important to note that workload is only one employment level factor among several
       prescribed by OMB Circular A-11 guidance which places greater emphasis on finding
       efficiencies in ongoing program implementation, particularly in light of deficit concerns.
       With respect to requiring more comprehensive analysis, further guidance will be
       informed by the ongoing study of workload drivers, components and products, and follow
       on efforts. The Agency’s Workload Benchmarking Study (described more in the
       following recommendation) will significantly shape our next steps.

Recommendation 2-2. We recommend the Chief Financial Officer require that OB require the
Agency to complete a workload analysis for all critical functions to coincide with developing the
strategic plan.

       Agency Response: Nonconcur.
       Currently, the Agency does not have a workload methodology or model to address this
       recommendation. Previous EPA models were discontinued because these models were
       not producing significant workload distinctions over time to change management
       decision-making meaningfully to justify the continued substantial investment of time and
       resources. Led by the Office of the Chief Financial Officer (OCFO), EPA is currently
       conducting a two-part Workload Benchmarking Study. EPA just completed the first
       component, an internal baseline survey designed to capture best estimates of EPA’s
       current workload level of effort (Federal full time equivalent or FTE) and work drivers in
       six major functional areas: Scientific Research, Environmental Monitoring, Regulatory
       Development, Permitting, Enforcement, and Financial Management. The second
       component will benchmark EPA’s baseline survey data with other Federal agencies
       performing similar work functions to identify best practices that may be applicable to our
       work, including potential methodologies that could be used to conduct workload analysis.
       After reviewing study results, the Agency will determine the most pragmatic and efficient
       next steps. We also continue to maintain that any workload analysis should be completed
       after development of the strategic plan, which identifies the Agency’s goals and
       objectives to be achieved, during implementation.

Recommendation 3-1. We recommend that the Assistant Administrator for Administration and
Resources Management require that the Office of Human Resources (OHR) amend its workforce

11-P-0031                                                                                      28
planning guidance to require that Headquarters program offices and regions provide the number
of positions needed for each mission critical occupation (MCO).

       Agency Response: Nonconcur.
       EPA fully complies with the 5 CFR Part 250 regulations for “Human Resources
       Management in Agencies.” Compliance with those regulations fully addresses workforce
       planning, including MCO competency assessments and resource planning. All requested
       workforce planning information and MCO resource results, including our submittals in
       our annual Human Capital Management Report required by 5 CFR Part 250, were
       submitted and accepted by OPM. We believe that estimating the number of positions
       needed in each MCO is misleading and fails to consider a matrixed workforce that is
       adaptable by design, particularly in regional offices where staff tackle difficult and often
       complex environmental challenges with multi-media strategies every day.

       EPA’s 2006 Strategic Workforce Plan established a standard methodology for workforce
       planning as a means of predicting current and future human resource needs which we
       believe meets the intent of this recommendation. In addition, we believe that when
       completed, the Agency’s Workload Benchmarking Study (noted above) will help offices
       in their workforce planning efforts.

Recommendation 3-2. We recommend that the Assistant Administrator for Administration and
Resources Management require that OHR use local level workforce planning results to report the
workforce size needed in the Human Capital Management Report under the mission critical
occupations’ resource chart.

       Agency Response: Nonconcur.
       Each year, OPM establishes the Systems Standards and Metrics charts to be included in
       the Human Capital Management Report (5 CFR Part 250) including the MCO charts and
       data required. EPA fully complies with that guidance and with the requirements listed in
       5 CFR Part 250 regulations for “Human Resources Management in Agencies.” Our
       report has been submitted and accepted by OPM. To change the report as suggested by
       the OIG would be inconsistent with OPM guidance and regulation.

Recommendation 4-1. We recommend that the Assistant Administrator for Administration and
Resources Management amend the strategic workforce plan and local level workforce planning
requests to require that Headquarters program offices and regions provide workforce planning
results for each Agency strategic goal and program area.

       Agency Response: Nonconcur.
       We continue to question the value and operability of directly linking specific day-to-day
       on-the-ground local workforce plans to very broad strategic goals (e.g., clean air, clean
       water, etc.) that remain relatively static by requiring OARM to collect, analyze, and
       summarize workforce planning information from program offices and regions by goal.
       We believe, however, that once alignment to strategic goals and objectives is linked in
       the budgeting process in 2013, a full summary of positions tied to FTE can be properly
       included in the performance budget and OARM will work with OCFO to determine the
       appropriate next steps. As stated earlier, this recommendation also clearly demonstrates

11-P-0031                                                                                       29
       the continued confusion regarding OCFO’s strategic/budget planning and OARM’s
       workforce planning responsibilities.

Recommendation 4-2. We recommend that the Assistant Administrator for Administration and
Resources Management summarize the workforce planning results obtained from the
Headquarters program offices and regions, including the number of positions, mission critical
occupations, and shortage strategies needed to achieve each EPA strategic goal.

Recommendation 4-3. We recommend that the Assistant Administrator for Administration and
Resources Management provide the summarized workforce planning results to OB for inclusion
in the performance budget.

Recommendation 4-4. We recommend the Chief Financial Officer require, through OB annual
budget submission memoranda, that OHR provide OB the workforce planning results at the
programmatic goal level.

       Agency Response (to Recommendations 4-2, 4-3 and 4-4): Nonconcur.
       We agree that workforce planning is best accomplished by individual EPA offices at the
       local level. However, as stated earlier in our cover letter and responses to the
       Recommendations 2-1 through 4-1, we question the added value and have concerns
       regarding inconsistency with OMB/OPM guidance/regulations and Congressional
       expectation and negative impacts associated with implementation of these
       recommendations. In addition, any workforce planning results that OARM provides to
       OB would be limited to only MCO positions and would not include the more than 200
       EPA occupational series, and, as such, would be of limited value.




11-P-0031                                                                                   30
                                     Technical Comments

1.	 Page 1, revise FTE and budget statement, as follows:
    “For Fiscal Year (FY 2009), EPA’s budget included approximately 17,200 employees and
    payroll represented $2.2 billion (29%) of EPA’s $7.6 billion total budget”. This revised
    statement also applies to the “At a Glance” page. Also, in Figure 1.1, the FY 2005 FTE
    should be 17,759.

2.	 Pages 13 and 14, Tables 4-1 and 4-2. To avoid confusion, please clarify that only certain
    portions of the individual FY 2010 CJ examples are presented, particularly within the
    “Program Project Description:” and “FY 2010 Activities and Performance Plan:” sections.
    Normally, this is represented by “….” before and after included text.

3.	 Page 17. Please revise as follows:
    Office of the Chief Financial Officer, including the Office of Budget and Office of Planning,
    Analysis, and Accountability.




11-P-0031                                                                                       31
                                                                                   Appendix E


               OARM Alternative Recommendations
 (On October 29, 2010, OARM provided alternative recommendations and MCO chart to
                         those identified in the draft report)


Proposed Recommendations
“EPA Needs to Strengthen Internal Controls for Determining Workforce Levels”
OIG Project Number 2008-536


          current recommendation                              proposed recommendation
3-1                                             3-1
We recommend that the Assistant                 We recommend that the Assistant Administrator for
Administrator for Administration and            Administration and Resources Management require
Resources Management require that the           that the Office of Human Resources (OHR) issue, in
Office of Human Resources (OHR) amend           conjunction with Resource Management Directive
its workforce planning guidance to require      2520 and the annual planning and budget memoranda,
that Headquarters program offices and           amend its workforce planning guidance to require that
regions provide the number of positions         program and regional offices provide the number of
needed for each mission critical occupation     positions for the current fiscal year in each mission
(MCO).                                          critical occupation (MCO), and the number projected
                                                to accomplish planned Agency goals. (See
                                                Attachment 1)
3-2                                             3-2
We recommend that the Assistant                 We recommend that the Assistant Administrator for
Administrator for Administration and            Administration and Resources Management require
Resources Management require that OHR           that OHR report the MCO data gathered in
use local level workforce planning results to   conjunction with Resource Management Directive
report the workforce size needed in the         2520 and the annual planning and budget memoranda,
Human Capital Management Report under           within the Human Capital Management Report, to the
the mission critical occupations’ resource      extent possible and allowed by OPM guidance.
chart.
4-1                                             4-1
We recommend that the Assistant                 Upon development of the Agency’s Strategic Plan,
Administrator for Administration and            require Agency program and regional offices to
Resources Management amend the strategic        provide local level workforce planning data, including
workforce plan and local level workforce        current and potential shifts in the numbers of MCO
planning requests to require that               positions needed to meet strategic goals.
Headquarters program offices and regions
provide workforce planning results for each
Agency strategic goal and program area.




11-P-0031                                                                                     32
                                                                                   Attachment 1:
                                                                               Number    Additional
 #                                                               Occupation   Currently   Number
                   Mission-Critical Occupations
                                                                   Series     On-Board    Projected
      Cross-cutting MCO: Leaders
  1
      Scientist:
  2
         Toxicologists                                           0415
  3      Geneticist                                              0440
  4      Ecologists                                              0408
  5      Biologists                                              0401
  6      Economists                                              0110
  7      Chemists                                                1320
  8      Physical Scientists                                     1301
  9      Health Scientists                                       0601
 10      Environmental Engineers/Mechanical Engineers            0819/0830
 11     Attorneys                                                0905
      Program and Management Support:
 12
         Information Technology                                  0334/2210
 13      Environmental Protection Specialists                    0028
 14      Human Resources Specialists                             0201
 15      Public Affairs/Information Specialists                  0301/0340/
           (includes Program/Admin. Specialists)                 0343/1035
      Financial Resource Management:
 16
         Grants Specialists                                      1101
 17      Accountants/Auditors                                    0510/0511
 18      Financial Specialists                                   0501
 19      Contract Specialists                                    1102
Source: EPA, Office of Administration and Resources Management




11-P-0031                                                                                     33
                                                                              Appendix F

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Chief Financial Officer
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Human Resources, Office of Administration and Resources Management
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of the Chief Financial Officer
Audit Followup Coordinator, Office of Administration and Resources Management




11-P-0031                                                                                34
